TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                             Incurred Costs Audit for
                     Fiscal Year Ending September 30, 2002



                                         September 2005

                             Reference Number: 2005-1C-115




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 14, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Incurred Costs Audit for Fiscal Year Ending September 30, 2002
                             (Audit # 20051C0225)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s March 3, 2003, certified
 final indirect cost proposal and related books and records for reimbursement of Fiscal Year 2002
 incurred costs. The purpose of the examination was to determine the allowability of direct and
 indirect costs and to establish audit-determined indirect cost rates for October 1, 2001, through
 September 30, 2002. The proposed rates apply primarily to the flexibly priced contracts.
 The DCAA considers the contractor’s accounting system adequate for the accumulation,
 reporting, and billing of costs on Federal Government contracts. According to the DCAA, the
 contractor claims exception from the practices required by the Cost Accounting Standards Board
 rules and regulations because the contractor considers itself a small business concern.
 The DCAA stated that the contractor’s proposed indirect rates are acceptable as proposed.
 Claimed direct costs are acceptable and provisionally approved pending final acceptance. The
 costs noted on the schedule of cumulative allowable costs represent costs that are considered
 allowable under the listed contracts and are therefore reimbursable.
 The information in this report should not be used for purposes other than those intended without
 prior consultation with the Treasury Inspector General for Tax Administration regarding their
 applicability.
               Incurred Costs Audit for Fiscal Year Ending September 30, 2002




If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                 2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
